January 28, 2003

RICHARD J. STRASSER, JR.
CHIEF FINANCIAL OFFICER AND EXECUTIVE VICE PRESIDENT

SUBJECT: Audit Report – Postal Service’s Total Factor Productivity
         (Report Number AC-AR-03-001)

This report presents the results of our self-initiated audit of selected aspects of the
Postal Service’s total factor productivity model (Project Number 01JG003LB000). The
audit objectives were to determine whether the data used in the Postal Service’s
productivity measure were appropriate and whether the Postal Service’s productivity
compared favorably with the private sector over time.

We concluded that the data used in the model was appropriate and consistent with
Postal Service published data. However, despite significant capital investments, the
Postal Service’s productivity gains fluctuated and were less than that realized by the
private sector. Factors contributing to the fluctuation and lower productivity gains
included the Postal Service’s focus on service instead of cost management, limits on its
ability to adjust labor resources, and failure to fully realize expected returns on some
capital investments. We noted that for fiscal years 2000 and 2001, the Postal Service
increased its focus on cost management and reduced labor hours, capital investment,
and material expenditures. This contributed to a combined 3.7 percent productivity
gain. We also noted that in fiscal year 2002, subsequent to our audit, the Postal
Service achieved a 1.1 percent productivity gain. We recommended the Postal Service
continue proactively managing costs to further increase total factor productivity within
current laws and regulations and educate stakeholders on its need for additional
flexibility to fulfill its universal and public service obligations at a reasonable cost.

Management agreed with our recommendations and stated the report effectively
addressed the challenges faced by the Postal Service in maintaining productivity gains
in the future. Management’s comments and our evaluation of these comments are
included in this report.
We appreciate the cooperation and courtesies provided by your staff during the audit.
If you have any questions, please contact Larry Chisley at (813) 261-5200 or me at
(703) 248-2300.



B. Wayne Goleski
Assistant Inspector General
 for Core Operations

Attachment

cc: Charles S. Hartsock
    Louis E. Honore
    Susan M. Duchek
Postal Service’s Total Factor Productivity                            AC-AR-03-001



                                     TABLE OF CONTENTS
 Executive Summary                                                          i

 Part I

 Introduction                                                              1

      Background                                                           1
      Objectives, Scope, and Methodology                                   2
      Prior Audit Coverage                                                 3

 Part II

 Audit Results                                                             4

      Data Used in Total Factor Productivity Was Appropriate               4

      Total Factor Productivity Fluctuated and Was Below Private           5
       Sector Productivity Gains

      Proactive Cost Management Leads to Productivity Gains                8
      Recommendations                                                      8
      Management’s Comments                                                9
      Evaluation of Management’s Comments                                  9

 Appendix. Management’s Comments                                          10




                                             Restricted Information
Postal Service’s Total Factor Productivity                                                           AC-AR-03-001



                                       EXECUTIVE SUMMARY
    Introduction                   During the 1980s, a Postal Service contractor developed a
                                   total factor productivity model to measure the changes in
                                   the relationship between services provided and the
                                   resources expended in providing those services. The
                                   objectives of this self-initiated audit were to determine
                                   whether the data used in the total factor productivity model
                                   resulted in an appropriate measure of productivity and to
                                   compare the Postal Service’s total factor productivity levels
                                   to private sector multifactor productivity.

    Results in Brief               We concluded that the data used in the Postal Service’s
                                   total factor productivity model was appropriate. Specifically,
                                   the data used in the model were consistent with financial
                                   information reported in the Postal Service’s financial
                                   statements and the economic indices used were
                                   appropriate. Since fiscal year (FY) 1990, the Postal
                                   Service’s total factor productivity grew about 2.9 percent,
                                   which translated into a $3 billion cost savings. However,
                                   despite significant capital investments, the Postal Service’s
                                   productivity fluctuated and has been less than the
                                   9.3 percent productivity increase realized by private sector
                                   companies. If the Postal Service had kept pace with
                                   productivity increases in the private sector, it would have
                                   realized an additional $2 billion in costs savings.1

                                   Factors contributing to fluctuating and lower productivity
                                   gains included the Postal Service’s focus on service instead
                                   of cost management, limited reduction in labor resources
                                   during periods of declining volume growth rates, and failure
                                   to fully realize expected returns on some capital
                                   investments. Despite these factors, during FYs 2000 and
                                   2001, the Postal Service achieved 2.4 percent and
                                   1.3 percent productivity gains, respectively–a cost savings
                                   of about $2.4 billion. Without these total factor productivity
                                   gains, the Postal Service’s losses during this period would
                                   have been approximately $4.3 billion instead of the actual
                                   loss of $1.9 billion.


1
 As does the Postal Service in its annual reports, we compared Postal Service’s total factor productivity to the
nonfarm multifactor productivity published by the Bureau of Labor Statistics. We recognize that multifactor
productivity is not an ideal benchmark for the Postal Service because it contains many companies and industries that
are less labor intensive than the Postal Service.




                                                         i
                                              Restricted Information
Postal Service’s Total Factor Productivity                                              AC-AR-03-001



 Summary of                      We recommended the Postal Service continue proactively
 Recommendations                 managing costs to further increase total factor productivity
                                 under current law and regulations and educate stakeholders
                                 on its need for additional flexibility to fulfill its universal and
                                 public service obligations at a reasonable cost.

 Summary of                      Management agreed with our recommendations stating they
 Management’s                    intend to continue targeting and budgeting for total factor
 Comments                        productivity growth. In addition, management stated that
                                 the purpose of the Transformation Plan issued April 2002
                                 was to educate stakeholders on the need for further
                                 flexibility to fulfill its universal and public service obligations
                                 at a reasonable cost. Further, management reiterated that
                                 multifactor productivity was not an ideal benchmark for the
                                 Postal Service and stated that variations in total factor
                                 productivity was in part the result of the Postal Service
                                 sacrificing productivity gains for other goals. Management
                                 concluded that the report effectively discussed the
                                 challenges the Postal Service faced in maintaining
                                 productivity gains in the future.

 Overall Evaluation of           Management’s comments are responsive to our
 Management’s                    recommendations and the actions taken and planned
 Comments                        should correct the issues identified in the report.




                                                        ii
                                             Restricted Information
Postal Service’s Total Factor Productivity                                                             AC-AR-03-001



                                             INTRODUCTION
    Background                      During the 1980s, a Postal Service contractor developed a
                                    comprehensive measure of productivity. The contractor
                                    developed the Postal Service’s total factor productivity
                                    model and assisted the Postal Service in establishing the
                                    required data sets used in the model to calculate productivity
                                    changes. The model was used to measure the changes in
                                    the relationship between services provided and the
                                    resources used in providing those services. The Postal
                                    Service’s main services or workload were mail volume and
                                    its delivery network–the number of household and business
                                    addresses served. Resources include all labor, capital,2 and
                                    materials3 used to process and deliver the mail.

                                    Simply stated, total factor productivity changes are
                                    calculated as the percentage change in workload minus the
                                    percentage change in resources used. Productivity
                                    increases when services provided increase at a faster rate
                                    than the resources used to process the workload. For
                                    example, if workload increases by 2 percent and the
                                    resources used increase by only 1 percent, total factor
                                    productivity would increase by 1 percent.

                                    The Postal Service’s total factor productivity measure has
                                    been compared to the nonfarm private business sector’s
                                    multifactor productivity–a measure used by the Bureau of
                                    Labor Statistics to report productivity changes. While the
                                    nonfarm private business sector multifactor productivity is
                                    the most comparable benchmark for the Postal Service’s
                                    total factor productivity, it is not an ideal benchmark because
                                    changes in multifactor productivity are heavily influenced by
                                    capital and technology intensive business sectors. Although
                                    the Postal Service invested billions in automation, it still
                                    relies largely on its labor workforce to provide mail services.
                                    Roughly 78 percent of the Postal Service’s cost structure is
                                    labor cost.




2
  Capital includes buildings, land, vehicles, processing equipment, and service equipment.
3
  Materials include transportation, supplies and services, utilities, research and development, and miscellaneous
judgments.




                                                          1
                                               Restricted Information
Postal Service’s Total Factor Productivity                                                           AC-AR-03-001



                                   In addition, total factor productivity along with postage rates
                                   and resource prices affect financial performance.4 In fiscal
                                   year (FY) 2001, the Postal Service used total factor
                                   productivity as the sole national measure of financial
                                   performance in its pay for performance program. While
                                   changes in total factor productivity affect financial
                                   performance, total factor productivity only measures how
                                   resources are used to produce services and does not
                                   always directly correlate with net income. The Postal
                                   Service recently discontinued its pay for performance
                                   program but continues to track total factor productivity
                                   changes.

    Objectives, Scope,             Our objectives were to determine whether the data used in
    and Methodology                the Postal Service’s total factor productivity model resulted
                                   in an appropriate measure of productivity and to compare
                                   the Postal Service’s productivity levels to the private sectors’
                                   multifactor productivity. To accomplish our objectives, we
                                   interviewed Postal Service Headquarters personnel in the
                                   Office of Budget and Financial Analysis, to obtain
                                   information on the development, implementation, and uses
                                   of total factor productivity within the budget planning process
                                   and financial performance analysis. We interviewed the
                                   Postal Service contractor responsible for developing and
                                   providing total factor productivity results and interviewed
                                   industry officials and reviewed various studies to gain
                                   background and benchmarking information related to the
                                   model.

                                   In addition, we obtained, reviewed, and analyzed input and
                                   output data used in the total factor productivity model during
                                   FYs 1999 to 2001 to determine whether the data were
                                   reasonable. To assist in our analysis, we utilized
                                   economists to determine whether the indices and base
                                   years used in the total factor productivity calculation for
                                   FY 2001 were reasonable. Finally, we relied on the Office of
                                   Inspector General (OIG) financial management team that
                                   annually tests and validates the Postal Service’s financial
                                   systems and data for security, reliability, and accuracy.




4
  Financial performance represents the achievement of net income and productivity gains, and investments in future
improvements in service and productivity by making substantial capital investments.




                                                         2
                                              Restricted Information
Postal Service’s Total Factor Productivity                                       AC-AR-03-001




                                 Our audit was conducted from March 2002 through
                                 January 2003 in accordance with generally accepted
                                 government auditing standards and included such test of
                                 internal controls as were considered necessary under the
                                 circumstances. We discussed our conclusions and
                                 observations with appropriate management officials and
                                 included their comments, where appropriate.

 Prior Audit Coverage            In the OIG report, Total Factor Productivity (Report
                                 Number PA-AR-98-002, dated September 30, 1998), we
                                 concluded that the total factor productivity model was
                                 conceptually proper and that measurements were calculated
                                 and consistent with the model using the available Postal
                                 Service data. However, we noted that timeliness and quality
                                 of service data were not included in the model. We
                                 recommended management develop a plan for introducing
                                 timeliness and quality of service-related measurements to
                                 the total factor productivity model. Management concurred
                                 with the recommendation; however, management has not
                                 resolved the issue of accounting for service quality in the
                                 total factor productivity model.




                                                        3
                                             Restricted Information
Postal Service’s Total Factor Productivity                                           AC-AR-03-001



                                             AUDIT RESULTS
 Data Used in Total              The data used in the Postal Service’s total factor productivity
 Factor Productivity             model provided an appropriate measure of productivity
 Was Appropriate                 changes each year. Specifically, we determined the data
                                 used to calculate annual total factor productivity changes
                                 were consistent with the Postal Service’s financial statement
                                 data. The Postal Service used labor hours and employee
                                 pay and experience levels to determine the change in labor
                                 resources. Quantity and price indices were applied to
                                 capital and material expenditures to standardize the change
                                 in resource prices and to determine the quantity of those
                                 resources used each year. Mail volumes and network
                                 delivery points were used to calculate the Postal Service’s
                                 workload each year.

                                 We also determined that the indices the Postal Service used
                                 were the best available in that they were reported by the
                                 Bureau of Labor Statistics and Bureau of Economic
                                 Analysis. Also, where indices did not exist for specific goods
                                 or services, the Postal Service used historical operational
                                 data. As a result, the total factor productivity model provides
                                 a reasonable measure of productivity each year.




                                                        4
                                             Restricted Information
Postal Service’s Total Factor Productivity                                                     AC-AR-03-001




 Total Factor                         While the total factor productivity model appropriately
 Productivity                         measured productivity, the Postal Service’s productivity
 Fluctuated and Was                   fluctuated and was below the gains of the nonfarm private
 Below Private Sector                 business sector. Factors contributing to the fluctuation and
 Productivity Gains                   lower productivity gains included the Postal Service’s focus
                                      on service instead of cost management, limits on its ability to
                                      adjust labor resources and failure to fully realize expected
                                      returns on some capital investments. Since 1990, if the
                                      Postal Service had achieved the productivity gains
                                      measured in the nonfarm private sector, it would have
                                      realized costs savings of about $5 billion–$2 billion more
                                      than the $3 billion reportedly realized.

 Total Factor                         Although, total factor productivity improved during several
 Productivity Gains                   periods since FY 1990, the Postal Service’s productivity
 Fluctuated                           fluctuated. For example, in FYs 1992 and 1993, the Postal
                                      Service’s productivity grew by 4.2 percent but in FYs 1994
                                      through 1996, productivity declined by 3.4 percent–yielding
                                      a net productivity gain of only .8 percent for that 4-year
                                      period. Specifically, during FYs 1992 and 1993, the Postal
                                      Service reduced labor resources while workload increased
                                      resulting in productivity gains. However, in FYs 1994
                                      through 1996, the Postal Service labor resources used
                                      increased by more than the increase in workload, resulting
                                      in productivity losses.

                                      The following chart illustrates the Postal Service’s fluctuating
                                      pattern of total factor productivity gains and losses from
                                      FYs 1991 through 2001.


                                      Total Factor Productivity Changes

                   5
                                        3.8
                   4
                   3                                                                    2.4
         Percent




                   2                                                1.3                        1.3
                   1           0.4
                   0
                   -1                         -0.2                               -0.1
                   -2                                       -1.3           -1
                        -1.8                         -1.9
                   -3
                        1991   1992    1993   1994   1995   1996   1997   1998   1999   2000   2001




                                                          5
                                               Restricted Information
Postal Service’s Total Factor Productivity                                           AC-AR-03-001




 Total Factor                    In addition, the Postal Service’s overall total factor
 Productivity Gains              productivity has been below the comparable private sector
 Below Comparable                multifactor productivity. Specifically, the Postal Service’s
 Private Sector                  total factor productivity increased 2.9 percent while the
                                 comparable private sector’s productivity increased by
                                 9.3 percent since FY 1990. The following chart compares
                                 the Postal Service’s total factor productivity to the private
                                 sector’s multifactor productivity since FY 1990.

                        Postal Service Total Factor Productivity Versus
                                    Multifactor Productivity
                                                Indexed to 1990


                1.1
               1.08
               1.06
       Index




               1.04
               1.02
                 1
               0.98
                      1990 1991 1992 1993 1994 1995 1996 1997 1998 1999 2000 2001

                                                 Total Factor         Multifactor

                                 Postal Service management stated that the fluctuating and
                                 lower productivity gains occurred in part because they were
                                 focusing on improving delivery service and automation,
                                 instead of managing resources to improve productivity. In
                                 addition, we found the Postal Service’s ability to reduce
                                 labor resources was limited and they did not effectively
                                 ensure returns on investments in technology. For example:

                                 •   In 1978, the Postal Service agreed to a ‘No Layoff or
                                     Reduction in Force’ clause with its unions which limited
                                     the Postal Service’s ability to reduce labor when
                                     warranted by reductions in workload, which are still in
                                     effect. Thus, significant reductions in labor and
                                     improvements in total factor productivity have been
                                     limited to periods of hiring freezes or reductions in
                                     employees through attrition.

                                 •   OIG audits of the Tray Management System and
                                     Robotics Containerization System found investments in
                                     these projects totaling $639 million had not produced



                                                        6
                                             Restricted Information
Postal Service’s Total Factor Productivity                                                     AC-AR-03-001



                                      expected returns of more than $800 million. In another
                                      audit5 of seven projects totaling more than $800 million in
                                      capital investments, we disclosed that the accounting
                                      system did not track operating expenditures or actual
                                      savings for projects. As a result, the Postal Service did
                                      not know whether the expected returns on investments in
                                      these projects were being realized.




5
    Decision Analysis Report Process (Report Number DA-AR-01-005), dated September 27, 2001.




                                                        7
                                             Restricted Information
Postal Service’s Total Factor Productivity                                           AC-AR-03-001




 Proactive Cost                  During FYs 2000 and 2001 the Postal Service began
 Management Leads                managing cost to achieve total factor productivity
 to Productivity Gains           improvements and achieved a 3.7 percent productivity gain–
                                 a cost savings of about $2.4 billion. Without these
                                 productivity gains, the Postal Service’s losses during this
                                 period would have been approximately $4.3 billion, instead
                                 of the $1.9 billion loss.

                                 For instance, in FY 2000, the Postal Service began planning
                                 for total factor productivity improvements by targeting
                                 productivity gains during the budgeting process. The Postal
                                 Service reduced labor resources by approximately
                                 5 million hours and decreased material usage, while
                                 workload increased. As a result, the Postal Service’s total
                                 factor productivity increased by 2.4 percent. In FY 2001, the
                                 Postal Service further decreased labor resources by
                                 approximately 34 million hours and decreased material
                                 usage while workload declined slightly. Thus, the Postal
                                 Service’s total factor productivity increased by 1.3 percent.

                                 We commend the Postal Service for the significant total
                                 factor productivity gains achieved during FYs 2000 and
                                 2001. However, we question management’s ability to
                                 maintain these gains because of the limitations previously
                                 discussed and we caution management to ensure that cost
                                 cutting measures are strategic and not short-term. For
                                 example, during FY 2001, the Postal Service instituted a
                                 freeze on hiring and capital spending for new facilities, which
                                 contributed to the total factor productivity gains but may
                                 result in long-term negative impacts on Postal Service
                                 operations.

 Recommendations                 We recommend the chief financial officer and executive vice
                                 president:

                                 1. Continue targeting and budgeting for total factor
                                    productivity growth within its current laws and
                                    regulations.

                                 2. Educate stakeholders on the need for further flexibility to
                                    fulfill its universal and public service obligations at a
                                    reasonable cost.




                                                        8
                                             Restricted Information
Postal Service’s Total Factor Productivity                                        AC-AR-03-001




 Management’s                    Management agreed with our recommendations stating they
 Comments                        intend to continue targeting and budgeting for total factor
                                 productivity growth. In addition, management stated that the
                                 purpose of the Transformation Plan issued April 2002 was to
                                 educate stakeholders on the need for further flexibility to
                                 fulfill its universal and public service obligations at a
                                 reasonable cost. Further, management reiterated that
                                 multifactor productivity was not an ideal benchmark for the
                                 Postal Service and stated that variations in total factor
                                 productivity was in part the result of the Postal Service
                                 sacrificing productivity gains for other goals. Management
                                 concluded that the report effectively discussed the
                                 challenges the Postal Service faced in maintaining
                                 productivity gains in the future.

 Evaluation of                   Management’s comments are responsive to our
 Management’s                    recommendations and the actions taken and planned should
 Comments                        correct the issues identified in the report. In addition, we
                                 revised the report as appropriate to address management’s
                                 additional comments.




                                                        9
                                             Restricted Information
Postal Service’s Total Factor Productivity                            AC-AR-03-001




                     APPENDIX. MANAGEMENT’S COMMENTS




                                                       10
                                             Restricted Information
Postal Service’s Total Factor Productivity                            AC-AR-03-001




                                                       11
                                             Restricted Information
